Report No. D-2011-114             September 30, 2011




      Summary of Information Assurance Weaknesses
        as Reported by Audit Reports Issued From
         August 1, 2010, Through July 31, 2011
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DON                           Department of the Navy
FISMA                         Federal Information Security Management Act
IA                            Information Assurance
OMB                           Office of Management and Budget
PII                           Personally Identifiable Information
SSN                           Social Security Number
                                  INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202--4704 



                                                                       September 30, 20 II

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS
                 AND INFORMATION INTEGRATIONIDOD CHIEF
                 INFORMATION OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 Summary of Information Assurance Weaknesses as Reported by Audit
           Reports Issued From August 1,2010, Through July 31, 2011
           (Report No. D-2011-114)

We are providing this summary repOli for your information and use. This report is a
compilation of all audit repOlis issued during the given period that contained findings
describing weaknesses in the Depatiment's information assurance and information
security arena. This report contains no recommendations for action, however, it does
identify audit repOlis, previously issued, that contain open recommendations. The report
concludes that proper information assurance measures are essential to protect and defend
information and information systems by ensuring their availability, integrity,
authentication, confidentiality, and non-repudiation.

This summary repoti serves as a reference document to support the Depatiment of
Defense Office ofInspector General's response to the requirements of Public Law
107-347, Title III, "Federal Information Security Management Act (FISMA)," section
3545, December 17,2002. We did not issue a draft report and no written response is
required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 664-8866).



                                            {1Jf-~
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-114 (Project No. D2011-D000LB-0149.000)                         September 30, 2011
	


              Results in Brief: Summary of Information
              Assurance Weaknesses as Reported by
              Audit Reports Issued From August 1, 2010,
              Through July 31, 2011
                                                        The information security weaknesses in DoD
What We Did                                             continued to provide unauthorized personnel the
We researched, obtained, and summarized all             opportunity to modify, steal, inappropriately
audit reports, issued between August 1, 2010,           disclose, and destroy sensitive DoD data.
and July 31, 2011, that contained findings on           Persistent weaknesses in information security
information assurance weaknesses in DoD. The            policies and practices continued to threaten the
reports were issued by the Department of                availability, integrity, authentication,
Defense Office of Inspector General                     confidentiality, and non-repudiation of critical
(DoD OIG), Army Audit Agency, Naval Audit               information and information systems used to
Service, Air Force Audit Agency, and the                support operations, assets, and personnel.
Government Accountability Office. This
summary report is for information purposes only         What We Recommend
and supports the DoD OIG’s response to the              Recommendations are made in the individual
requirements of Public Law 107-347, Title III,          audit reports that are identified in this Summary
“Federal Information Security Management Act            Report. Therefore, this report contains no new
(FISMA),” section 3545, December 17, 2002.              recommendations and is provided for
                                                        information purposes only.
We included five additional information
assurance categories in this year’s report, as
identified by the FY 2011 Inspector General             Management Comments
Federal Information Security Management Act             We did not issue a draft report because this
reporting requirements. This report is the              report consolidates audit findings from audit
13th information assurance summary report               reports that were published in the last year. No
issued by the DoD OIG since January 1999.               written response to this report is required.

What We Found
Between August 1, 2010, and July 31, 2011, the
DoD OIG, Army Audit Agency, Naval Audit
Service, Air Force Audit Agency, and
Government Accountability Office issued
42 reports addressing a wide range of
information assurance weaknesses that persist
throughout DoD systems and networks. The top
four weaknesses identified were security
policies and procedures/management oversight;
security awareness, training, and education;
access controls; and Privacy Act information.




                                                  i
	
Table of Contents

Introduction		                                                                1


       Objectives                                                             1

       Background                                                             1


Results. Information Assurance Weaknesses Continue to Persist
	
Throughout DoD                                                                4
	

       Reports on Information Assurance Weaknesses                            4
	
       Types of Information Assurance Weaknesses                              5

       Persistent Information Assurance Weaknesses Reported in the 

          Past 12 Years                                                       8

       Unresolved Recommendations                                             9

       Summary                                                                9


Appendices

       A. 	Scope and Methodology                                             10 

       B. 	Prior Coverage                                                    11 

       C. 	Matrix of Information Assurance Weaknesses Reported From

           August 1, 2010, Through July 31, 2011                             13 

       D. 	Audit Reports Issued From August 1, 2010, Through July 31, 2011   17 

       E. 	Matrix of Reports that Identified Key Information Assurance
	
           Weaknesses Reported From January 1, 1995, Through July 31, 2010   21 

       F. A
          	 udit Reports From Prior Information Assurance Summary Reports

          With Unresolved Recommendations                                    22 


Glossary 	                                                                   26
	
Introduction
Objectives
The purpose of this report is to provide a reference document that identifies all audit
reports that contained findings outlining information assurance weaknesses in DoD. The
overall objective was to summarize the information assurance (IA) weaknesses identified
in reports and testimonies issued by the DoD audit community and the Government
Accountability Office (GAO) between August 1, 2010, and July 31, 2011. This summary
report supports the Department of Defense Office of Inspector General’s (DoD OIG)
response to the requirements of Public Law 107-347, Title III, “Federal Information
Security Management Act (FISMA),” section 3545, December 17, 2002. See
Appendix A for a discussion of the scope and methodology and Appendix B for prior
coverage related to the objective.

Background
This report is the 13th annual IA summary the DoD OIG has issued since January 1999.
Collectively, the 12 previous reports summarized 535 reports and testimonies on IA
weaknesses found in DoD. Civil service and uniformed officers who develop, operate, or
manage DoD information technology resources should read this report to be aware of
potential IA challenges in both their own and shared DoD information technology
environments.

Additional Information Assurance Categories
In 2010, the Office of Management and Budget (OMB) mandated the Department of
Homeland Security provide guidance and operational oversight for FISMA reporting.
Specifically, the Department of Homeland Security is responsible for the development
and issuance of FISMA security metrics for Federal agencies. The Department of
Homeland Security recently issued the FY 2011 Inspector General FISMA Reporting
requirements. To remain consistent with the updated requirements, this year’s IA
summary report includes five additional IA categories. The new IA categories are remote
access management, identity and access management, continuous monitoring
management, contractor systems, and security capital planning. See the glossary for
definitions of these categories.

Federal Information Security Management Act of 2002
Federal agencies are required to annually submit a FISMA assessment on questions
related to information security management. The annual reports are submitted
electronically in CyberScope, an automated, streamlined platform used for secure FISMA
reporting for the collection of agency cyber security information.

FISMA provides a comprehensive framework for ensuring the effectiveness of
information security controls over information resources that support Federal operations
and assets. FISMA requires that each agency develop, document, and implement an
agency-wide information security program to provide security for the information and


                                            1
	
information systems that support the operations and assets of the agency. Each agency is
to comply with FISMA and related policies, procedures, standards, and guidelines,
including the information security standards promulgated under section 11331, title 40,
United States Code (40 U.S.C. 11331), “Responsibilities for Federal Information Systems
Standards.” Under 40 U.S.C. 11331, standards and guidelines for Federal information
systems are to be based on standards and guidelines developed by the National Institute
of Standards and Technology. FISMA requires that each agency with an Inspector
General appointed under the Inspector General Act of 1978, as amended, perform an
independent evaluation of the information security program and practices of that agency
to determine effectiveness. The agencies’ Inspector General, Chief Information Officer,
and Privacy Office all submit a single FISMA assessment report to OMB.

National Institute of Standards and Technology
To meet its statutory responsibilities under FISMA, the National Institute of Standards
and Technology, part of the U.S. Department of Commerce, developed a series of
standards and guidelines to provide information security for operations and assets of
Federal agencies. Specifically, the Computer Security Division of the Information
Technology Laboratory developed computer security prototypes, tests, standards, and
procedures designed to protect sensitive information from unauthorized access or
modification. Focus areas include certification and accreditation, cryptographic
technology and applications, advanced authentication, public key infrastructure,
internetworking security, criteria and assurance, and security management and support.
The standards and guidelines present the results of National Institute of Standards and
Technology studies, investigations, and research on information technology security.

Privacy Act of 1974 and E-Government Act of 2002
On June 13, 2005, OMB required Federal agencies to begin including information on
their privacy programs. At the same time, OMB also discontinued agencies’ annual
privacy-related submissions under Public Law 107-347, “E-Government Act of 2002,”
December 17, 2002. OMB’s privacy questions relate in part to the Privacy Act of 1974;
section 552a, title 5 United States Code; and the E-Government Act of 2002. The intent
of the Privacy Act is to require Federal agencies to protect individuals against
unwarranted invasions of their privacy by limiting the collection, maintenance, use, and
disclosure of personal information about them. The E-Government Act requires that
Federal agencies establish information practices that restrict disclosure of personally
identifiable records and grants individuals increased access to agency records maintained
on them. The E-Government Act of 2002 additionally requires that Federal agencies
protect the collection of personal information in Federal Government information
systems by conducting privacy impact assessments. A privacy impact assessment is an
analysis of how personal information is collected, stored, shared, and managed in Federal
information technology systems.




                                            2
	
DoD Information Assurance Guidance
DoD IA guidance comprises the following documents.

      •	 DoD Directive 5400.11, “DoD Privacy Program,” May 8, 2007, establishes
         policy for the respect and protection of an individual’s personal information
         and fundamental right to privacy.
      •	 DoD Instruction 5400.16, “DoD Privacy Impact Assessment (PIA)
         Guidance,” February 12, 2009, establishes policy and assigns responsibilities
         for completion and approval of Privacy Impact Assessments.
      •	 DoD Directive 8500.01E, “Information Assurance (IA),” October 24, 2002,
         Certified Current as of April 23, 2007, establishes policy and assigns
         responsibility to achieve IA throughout DoD.
      •	 DoD Instruction 8500.2, “Information Assurance (IA) Implementation,”
         February 6, 2003, implements the policy, assigns responsibilities, and
         prescribes procedures for applying integrated layered protection of DoD
         information systems and networks as DoD Directive 8500.01E outlines.
      •	 DoD Instruction 8510.01, “DoD Information Assurance Certification and
         Accreditation Process (DIACAP),” November 28, 2007, establishes a
         certification and accreditation process.
      •	 DoD Directive 8570.01, “Information Assurance Training, Certification, and
         Workforce Management,” August 15, 2004, Certified Current as of
         April 23, 2007, establishes policy and assigns responsibility for DoD IA
         training, certification, and workforce management.
      •	 DoD Policy, “Web Site Administration Policies and Procedures,”
         November 25, 1998, latest correction from January 11, 2002, delineates the
         policy and assigns responsibility related to establishing, operating, and
         maintaining unclassified Web sites and other related services.
      •	 Deputy Secretary of Defense Memorandum, “Department of Defense (DoD)
         Web Site Security Policy Compliance,” September 25, 2008, requires
         Components to ensure that they have processes in place that ensure all
         information posted to publicly accessible Web sites is reviewed and approved
         prior to posting.
      •	 Deputy Secretary of Defense Memorandum, “Policy for Department of
         Defense (DoD) Interactive Internet Activities,” June 8, 2007 provides
         authority and guidance for the use of interactive internet activities, systems
         accessible via the internet which allows for two-way communications.
      •	 Deputy Secretary of Defense Memorandum, “Web Site Administration,”
         December 7, 1998, provides policy, assigns responsibility, and describes the
         procedures for establishing, operating, and maintaining DoD unclassified Web
         sites. To maximize the availability of timely and accurate information to the
         public, as well as maintaining a secure framework, DoD Components have the
         responsibility to ensure sound information assurance practices are in place and
         operating for Web sites.




                                          3
	
Results. Information Assurance Weaknesses
Continue to Persist Throughout DoD
Between August 1, 2010, and July 31, 2011, the DoD audit community and GAO issued
42 reports addressing a wide range of IA weaknesses that persist throughout DoD
systems and networks. This report summarizes the IA weaknesses listed in the reports.
The top four weaknesses identified were security policies and procedures/management
oversight; security awareness, training, and education; access controls; and Privacy Act
information. The information security weaknesses in DoD continued to provide
unauthorized personnel the opportunity to modify, steal, inappropriately disclose, and
destroy sensitive DoD data. Persistent weaknesses in information security policies and
practices identified in this report continued to threaten the availability, integrity, proper
authentication, confidentiality, and non-repudiation of critical information and
information systems used to support operations, assets, and personnel.

Reports on Information Assurance Weaknesses
The weaknesses identified in reports by the DoD audit community and GAO were
defined by guidance described in FISMA, OMB memoranda, National Institute of
Standards and Technology standards and guidelines, and DoD guidelines. On
June 1, 2011, for the first time, the Department of Homeland Security issued the annual
FISMA Reporting requirements. The following table shows the number of information
assurance weaknesses that the 42 reports identified. See the glossary for specialized
terms.




                                              4
	
                 Table. Information Assurance Weaknesses Reported From
	
                           August 1, 2010, Through July 31, 2011
	
                                                       DoD          Military
                 IA Areas                    GAO                                       Total
                                                       OIG        Departments
Access Controls                                0         3             9                 12
Certification and Accreditation                1         3             1                  5
Configuration Management                       1         3             1                  5
Contingency Plans                              0         0             1                  1
Continuity of Operations Plans                0          2             0                 2
Continuous Monitoring Management              0          3             1                 4
Contractor Systems                            0          0             0                 0
Cyber Security                                0          0             1                 1
Identity and Access Management                1          4             2                 7
Information Systems Inventory
                                              1          0             1                  2
Reporting
Incident Handling                             0          1             1                  2
Interoperability                              1          0             0                  1
Personnel Security                            1          0             1                  2
Physical Security                             0          1             2                  3
Plans of Action and Milestones                6          2             1                  9
Privacy Act Information                       0          1             9                 10
Remote Access Management                      0          0             0                  0
Risk, Threat, and Vulnerability
                                              2          2             2                  6
Assessment
Security Capital Planning                     2          0             0                  2
Security Awareness, Training, and
                                              1          1            11                 13
Education
Security Policies &
                                              8          4            26                 38
Procedures/Management Oversight

 Types of Information Assurance Weaknesses
 Reports issued during the reporting period most frequently cited weaknesses in the IA
 areas of security policies and procedures/management oversight; security awareness,
 training, and education; access controls; and Privacy Act information. See Appendix C
 for a matrix of reports listed by their specific IA weaknesses and Appendix D for a list of
 reports summarized in this report.

 Security Policies and Procedures/Management Oversight
 The category of security policies and procedures/management oversight entails an
 organization’s policies for operation and the procedures necessary to implement the


                                              5
	
policies. The DoD audit community and GAO reported weaknesses related to security
policies and procedures/management oversight in 38 reports. For example, Air Force
Audit Agency Report No. F2010-0008-FC4000, “Temporary Duty Travel Management,”
September 13, 2010, found that travel management personnel did not properly segregate
duties among accountable officials and allowed personnel multiple levels of access. In
addition, travel management personnel did not always properly appoint or train
accountable officials. Further, travel
management personnel improperly granted              As a result, accountable officials
contractor personnel approval authority in            with multiple permission levels
the Defense Travel System. These                         inappropriately approved
conditions existed because Air Force                     4,775 vouchers, valued at
guidance did not include a requirement to                    over $6 million…
periodically review accountable official
permission levels to ensure proper segregation of duties, did not adequately address
accountable official management, and did not adequately address the Defense Travel
System rights and permission levels for contractor personnel. As a result, accountable
officials with multiple permission levels inappropriately approved 4,775 vouchers, valued
at over $6 million, accountable officials did not receive required training necessary to
help ensure proper management of Air Force travel funds, and contractor personnel had
permission to approve and manage Air Force funds. The report recommended that the
Air Force Defense Travel System Financial Management Guide should define proper
segregation of duties and include examples of jobs and permission levels that must be
segregated; Air Force Lead Defense Travel Agents should verify all accountable officials
have training certificates and signed DD Forms 577 on file; and revise the Air Force
Defense Travel System Financial Management Guide to prohibit assigning contractor
personnel to accountable-level positions. According to the report, management officials
agreed with the audit issues in this report, and actions taken were responsive.

Security Awareness, Training, and Education
Security awareness, training, and education are defined as:
       •	 Awareness is a learning process that sets the stage for training by changing
           individual and organization attitudes to realize the importance of security and
           the adverse consequences of its failure.
       •	 Training is teaching individuals the knowledge and skills that will enable
           them to perform their jobs more effectively.
       •	 Education focuses on developing the ability and vision to perform complex,
           multidisciplinary activities and the skills needed to further the information
           technology security profession. Education activities include research and
           development to keep pace with changing technologies.

The DoD audit community and GAO reported weaknesses related to security awareness,
training, and education in 13 reports. For example, DoD Inspector General (IG) Report
No. D-2011-020, “DoD Controls Over Information Placed on Publicly Accessible Web
Sites Require Better Execution,” November 29, 2010, found that DoD organizations did
not ensure all DoD Web site administrators received the required Web operations security
training. Web operations security training is important to ensure the proper control and


                                             6
	
proper posting of sensitive information to DoD public Web sites. Of 470 Web site
administrators reviewed, 452 had not received required operations security training. This
                                     occurred because DOD organizations did not execute
          Of 470 Web site
                                     enforcement actions for noncompliance with Web
     administrators reviewed,
                                     site policies and procedures, and Components did not
  452 had not received required
                                     fully disseminate required policies and procedures
   operations security training.
                                     governing publicly accessible Web sites. As a result,
DoD is at a higher risk of posting sensitive information to DoD public Web sites. The
report recommended the Assistant Secretary of Defense for Networks and Information
Integration/DoD Chief Information Officer develop and issue a DoD Instruction that
requires heads of DoD Components to annually assess and document DoD Internet
services and use of Internet-based capabilities. This recommendation will allow for
compliance with applicable policies and procedures, to include that all Web site
administrators have received the proper Web operations security training. According to
the report, management agreed with the recommendation, stating that the annual policy
compliance assessment and corrective action will be mandated in the impending DoD
Instruction 8430.aa.

Access Controls
Access controls limit information system resources to authorized users, programs,
processes, or other systems. The DoD audit community and GAO reported weaknesses
related to access controls in 12 reports. For example, Air Force Audit Agency Report
No. F2011-0002-FB2000, “Enterprise Environmental Safety and Occupational Health –
Management Information System Application Controls,” February 15, 2011, found that
Enterprise Environmental Safety and Occupational Health – Management Information
System program personnel need to strengthen implementation of general controls.
Program and functional personnel did not maintain effective control over system access.
Specifically, Enterprise Environmental Safety and Occupational Health – Management
Information System points of contact incorrectly established user accounts without the
required approvals, did not deactivate all invalid user accounts, and provided some users
with excessive and unauthorized account privileges. This condition occurred because
program and functional personnel bulk loaded user accounts when migrating from the
former Air Force Environmental Management Information System to Enterprise
Environmental Safety and Occupational Health – Management Information System
without verifying user access requirements. As a result, the program could provide
unauthorized users access to enter improper transactions into the system. The report
recommended Enterprise Environmental Safety and Occupational Health – Management
Information System points of contact conduct a one-time reconciliation and correction of
all current accounts to user access forms and duty requirements. According to the report,
management concurred and has taken corrective actions.

Privacy Act Information
Privacy Act information is personal information about an individual that links, relates, or
is unique to or identifies or describes him or her, such as Social Security number (SSN);
age; military rank; civilian grade; marital status; race; salary; home or office phone
number; and other demographic, biometric, personal, medical, and financial information.


                                             7
	
This information is also referred to as personally identifiable information (PII), or
information which can be used to distinguish or trace an individual’s identity. The DoD
audit community and GAO reported weaknesses related to Privacy Act information in
10 reports. For example, Naval Audit Report No. N2011-0020, “Unnecessary Collection
of Personally Identifiable Information in the Department of the Navy,” January 28, 2011,
found that the Department of the Navy (DON) was unable to ensure only necessary PII
was being collected. Further, SSNs were printed or displayed on systems and
forms without being masked or condensed, as required. These conditions occurred
because:

   •	 There was no overall DON guidance to reduce the collection of SSNs;
   •	 The DoD Information Technology Portfolio Registry-DON database was
	
      incomplete;
	
   •	 DON could not identify all DON forms to reduce SSN collection; and
   •	 There was no DON requirement limiting exposure of SSNs.

As a result, DON does not have assurance of the proper collection and use of SSNs and
PII across the Department and puts the DON at a higher risk of identity theft. The report
recommended the DON Chief Information Officer issue guidance to reduce the collection
and limit the exposure of SSNs and other PII. According to the report, management
agreed with the recommendations and is taking corrective action.

Persistent Information Assurance Weaknesses Reported
in the Past 12 Years
The reports summarized in this report show that there continued to be a wide range of IA
weaknesses throughout DoD. The DoD audit community and GAO have issued
535 audit reports and testimonies over the last 12 years (see Appendix E for details),
which have frequently reported similar, if not identical, IA weaknesses. Security policies
and procedures/management oversight issues were identified in 376 reports; inadequate
access controls were identified in 251 reports; concerns related to risk, threat, and
vulnerability assessments were identified in 151 reports; certification and accreditation
were issues identified in 137 reports; security awareness, training, and education
weaknesses were identified in 124 reports; and inadequate contingency plans were
identified in 122 reports (see Appendix E). The figure below illustrates the number of
reports that identified the above cited IA weaknesses.




                                            8
	
           Figure. Reports Identifying Information Assurance Weaknesses
	
                              From 1999 Through 2010
	




Unresolved Recommendations
Since August 1, 2010, management had taken action to resolve IA-related
recommendations made in 49 of the previous reports. There were still 45 reports with
unresolved recommendations that required management action. Prompt action to correct
the outstanding IA weaknesses is necessary to mitigate ongoing vulnerabilities in the
DoD IA program. See Appendix F for a listing of the 45 reports with unresolved
recommendations relating to IA weaknesses.

Summary
Many of the IA weaknesses reported occurred because management of security programs
was inadequate and security policies and procedures were not in place. Without effective
management oversight, DoD cannot be assured that systems are accurately reported and
maintained, information systems contain reliable data, and personnel are properly trained
in security policies and procedures. Effective management oversight will remedy
persistent IA weaknesses, thereby increasing assurance that DoD information systems
maintain an appropriate level of confidentiality, integrity, authentication, and availability.




                                              9
	
Appendix A. Scope and Methodology
This report summarizes the DoD IA weaknesses identified in 42 reports that GAO and
the DoD audit community issued from August 1, 2010, through July 31, 2011. To
prepare this summary, the DoD OIG audit team reviewed the Web sites of GAO and each
DoD Component audit organization and requested reports discussing IA weaknesses from
each organization. The DoD OIG audit team also reviewed prior IA summary reports
and, with the assistance of the DoD audit community and GAO follow-up organizations,
summarized reports with unresolved recommendations on IA weaknesses.

This summary report does not make recommendations because recommendations have
already been made in the summarized reports. We did not follow generally accepted
government auditing standards in conducting this project because it is a summary project.
Also, we did not include independent tests of management controls or validate the
information or results reported in the summarized reports. This summary report supports
the DoD OIG response to the requirements of Public Law 107-347, Title III, “Federal
Information Security Management Act (FISMA),” section 3545, December 17, 2002.
We conducted this summary work from February 2011 through September 2011.

Use of Computer-Processed Data
We did not use computer-processed data when compiling information for this summary
report.




                                           10
	
Appendix B. Prior Coverage
During the last 12 years, DoD OIG has issued 12 summary reports detailing IA
weaknesses. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. The remainder of the reports are For Official Use
Only and can be obtained by contacting the Freedom of Information Act Requester
Service Center by telephone, (703) 604-9775 (DSN 664-9775), or fax (703) 602-0294.

DoD IG Report No. D-2010-090, “Summary of Information Assurance Weaknesses
	
Identified in Audit Reports Issued From August 1, 2009, Through July 31, 2010,”
	
September 30, 2010 (FOUO)
	

DoD IG Report No. D-2009-110, “Summary of Information Assurance Weaknesses
	
Identified in Audit Reports Issued From August 1, 2008, Through July 31, 2009,”
	
September 28, 2009 (FOUO)
	

DoD IG Report No. D-2008-125, “Summary of Information Assurance Weaknesses
	
Found in Audit Reports Issued From August 1, 2007, Through July 31, 2008,”
	
September 2, 2008
	

DoD IG Report No. D-2007-123, “Summary of Information Assurance Weaknesses
	
Found in Audit Reports Issued From August 1, 2006, Through July 31, 2007,”
	
September 12, 2007
	

DoD IG Report No. D-2006-110, “Summary of Information Assurance Weaknesses
	
Found in Audit Reports Issued From August 1, 2005, Through July 31, 2006,”
	
September 14, 2006
	

DoD IG Report No. D-2005-110, “Summary of Information Security Weaknesses
	
Reported by Major Oversight Organizations From August 1, 2004, Through 

July 31, 2005,” September 23, 2005 (FOUO)
	

DoD IG Report No. D-2004-116, “Information Security Weaknesses Reported by Major
	
Oversight Organizations From August 1, 2003, Through July 31, 2004,”
	
September 23, 2004 (FOUO)
	

DoD IG Report No. D-2004-038, “Information Assurance Challenges – A Summary of
	
Results Reported From August 1, 2002, Through July 31, 2003,” December 22, 2003 

(FOUO)

DoD IG Report No. D-2003-024, “Information Assurance Challenges – An Evaluation of
	
Audit Results Reported From August 23, 2001, Through July 31, 2002,”
	
November 21, 2002 (FOUO)
	




                                          11
	
DoD IG Report No. D-2001-182, “Information Assurance Challenges – A Summary of
Results Reported April 1, 2000, Through August 22, 2001,” September 19, 2001
(FOUO)

DoD IG Report No. D-2000-124, “Information Assurance Challenges – A Summary of
Audit Results Reported December 1, 1998, Through March 31, 2000,” May 15, 2000
(FOUO)

DoD IG Report No. 99-069, “Summary of Audit Results – DoD Information Assurance
Challenges,” January 22, 1999




                                       12
	
                                                                                                                                                         Office
                                                                                                                                                                        Agency




                                  GAO-11-75
                                                                                                                                                                       Report No.




                                                                                     GAO-11-276
                                                                                                  GAO-11-265
                                                                                                               GAO-11-148
                                                                                                                            GAO-10-916




                                              GAO-11-684
                                                                                                                                         GAO-10-636




                     GAO-11-565
                                                           GAO-11-621
                                                                        GAO-11-421
                                                                                                                                                       Government
                                                                                                                                                      Accountability




       GAO-11-566R
                                                                                                                                                                         Access Controls




                                                                                                                            X
                                                                                                                                                                         Certification and Accreditation




                                                           X
                                                                                                                                                                         Configuration Management

                                                                                                                                                                         Contingency Plans

                                                                                                                                                                         Continuity of Operations Plans

                                                                                                                                                                         Continuous Monitoring Management

                                                                                                                                                                         Contractor Systems

                                                                                                                                                                         Cyber Security




                                                                                                  X
                                                                                                                                                                         Identity and Access Management




                     X




13
	
                                                                                                                                                                         Information Systems Inventory Reporting

                                                                                                                                                                         Incident Handling




                                                                                     X
                                                                                                                                                                         Interoperability




                                                                        X
                                                                                                                                                                         Personnel Security

                                                                                                                                                                         Physical Security
                                                                                                                                                                                                                         Appendix C. Matrix of Information




                                                                                                               X
                                                                                                                            X




       X
                     X
                                  X
                                              X
                                                                                                                                                                         Plans of Actions and Milestones
                                                                                                                                                                                                                         August 1, 2010, Through July 31, 2011




                                                                                                                                                                         Privacy Act Information
                                                                                                                                                                                                                         Assurance Weaknesses Reported From




                                                                                                                                                                         Remote Access Management

                                                                                                               X




                                                           X
                                                                                                                                                                         Risk, Threat, and Vulnerability Assessment




                                  X
                                              X
                                                                                                                                                                         Security Capital Planning




                                                                        X
                                                                                                                                                                         Security Awareness, Training, Education

                                                                                                                                                                         Security Policies and Procedures / Management
                                                                                                  X
                                                                                                                            X




       X
                                  X
                                              X
                                                           X
                                                                                     X
                                                                                                                                         X




                                                                                                                                                                         Oversight
                                                                                  (FOUO)
                                                                                               (FOUO)
                                                                                                            (FOUO)
                                                                                                                                      (FOUO)




                  A-2011-

       A-2011-
                             A-2011-
                                        A-2011-
                                                   A-2010-
                                                              A-2010-


                                                   0212-FFI
                                                              0162-FFI




                  0143-IET

       0150-IET
                             0147-IET
                                        0100-IET
                                                                                                                                                     DoD




                                                                         Audit
                                                                         Army
                                                                                                                                                                Agency




                                                                         Agency
                                                                                                                                                    General




                                                                                  D-2011-089
                                                                                               D-2011-079
                                                                                                            D-2011-064
                                                                                                                         D-2011-020
                                                                                                                                      D-2010-074
                                                                                                                                                   Inspector
                                                                                                                                                               Report No.




                                                                                                                                        X




                                                                                    X
                                                                                                 X




                                         X
                                                    X
                                                               X
                                                                                                                                                                 Access Controls




                                                                                    X
                                                                                                              X
                                                                                                                                        X
                                                                                                                                                                 Certification and Accreditation




                                                                                                 X

                                                                                    X
                                                                                                                                        X
                                                                                                                                                                 Configuration Management

                                                                                                                                                                 Contingency Plans




                                                                                                              X
                                                                                                                                        X
                                                                                                                                                                 Continuity of Operations Plans




                                                                                                 X

                                                                                    X
                                                                                                                                        X
                                                                                                                                                                 Continuous Monitoring Management

                                                                                                                                                                 Contractor Systems

                                                                                                                                                                 Cyber Security




                                                                                                 X




                                                               X
                                                                                    X
                                                                                                              X
                                                                                                                                        X
                                                                                                                                                                 Identity and Access Management




14
	
                                                                                                                                                                 Information Systems Inventory Reporting




                                                                                                              X
                                                                                                                                                                 Incident Handling

                                                                                                                                                                 Interoperability

                                                                                                                                                                 Personnel Security
                                                                                                                                        X

                                                                                                                                                                 Physical Security




                   X
                                                                                                                         X

                                                                                                              X                                                  Plans of Actions and Milestones




        X
                                                                                                                         X



                                                                                                                                                                 Privacy Act Information

                                                                                                                                                                 Remote Access Management
                                                                                                              X




                                                                                    X

                                                                                                                                                                 Risk, Threat, and Vulnerability Assessment

                                                                                                                                                                 Security Capital Planning




        X
                              X
                                                                                                                         X




                                                                                                                                                                 Security Awareness, Training, Education

                                                                                                                                                                 Security Policies and Procedures / Management



                                         X
                                                                                                              X




        X
                   X
                              X
                                                    X
                                                               X
                                                                                    X
                                                                                                                         X
                                                                                                                                        X




                                                                                                                                                                 Oversight
       (FOUO)
                    (FOUO)
                                 (FOUO)
                                              (FOUO)
                                                           (FOUO)
                                                                        (FOUO)
                                                                                     (FOUO)
                                                                                                  (FOUO)
                                                                                                               (FOUO)
                                                                                                                            (FOUO)
                                                                                                                                         (FOUO)
                                                                                                                                                       Audit
                                                                                                                                                       Naval

                                                                                                                                                      Service
                                                                                                                                                                 Agency




       N2011-0046
                    N2011-0041
                                 N2011-0040
                                              N2011-0038
                                                           N2011-0028
                                                                        N2011-0025
                                                                                     N2011-0020
                                                                                                  N2011-0017
                                                                                                               N2011-0001
                                                                                                                            N2010-0052
                                                                                                                                         N2010-0046
                                                                                                                                                                Report No.




                                                                                                                 X
                                                                                                                                                                  Access Controls

                                                                                                                                                                  Certification and Accreditation

                                                                                                                                                                  Configuration Management

                                                                                                                                                                  Contingency Plans

                                                                                                                                                                  Continuity of Operations Plans

                                                                                                                                                                  Continuous Monitoring Management

                                                                                                                                                                  Contractor Systems

                                                                                                                                                                  Cyber Security

                                                                                                                                                                  Identity and Access Management




15
	
                                                                                                                                                                  Information Systems Inventory Reporting

                                                                                                                                                                  Incident Handling

                                                                                                                                                                  Interoperability

                                                                                                                                                                  Personnel Security




                                   X
                                                                                                                              X
                                                                                                                                                                  Physical Security

                                                                                                                                                                  Plans of Actions and Milestones




         X
                      X
                                   X
                                                             X
                                                                                       X
                                                                                                                              X




                                                                                                                                                                  Privacy Act Information

                                                                                                                                                                  Remote Access Management
                                                                                                                              X




                                                                                                                                                                  Risk, Threat, and Vulnerability Assessment

                                                                                                                                                                  Security Capital Planning




                                   X
                                                                                                                              X




                                                                                                                                                                  Security Awareness, Training, Education

                                                                                                                                                                  Security Policies and Procedures / Management




         X
                      X
                                                X
                                                             X
                                                                          X
                                                                                       X
                                                                                                    X
                                                                                                                 X
                                                                                                                                           X




                                   X
                                                                                                                              X




                                                                                                                                                                  Oversight
                                                                                              Total
                                                                                                                                                                                                                      FC2000




                                                                                                                                                                                          FC4000




                                                                                                      FB4000
                                                                                                                    FB4000
                                                                                                                                  FB4000
                                                                                                                                                FB2000
                                                                                                                                                              FB4000
                                                                                                                                                                            FB4000
                                                                                                                                                                                                        FB4000
                                                                                                                                                                                                                                     Audit
                                                                                                                                                                                                                                                 Agency




                                                                                                                                                                                                                                     Agency
                                                                                                                                                                                                                                    Air Force



                                                                                                                                                                                                                      F2010-0005-




                                                                                                      F2011-0006-
                                                                                                                    F2011-0004-
                                                                                                                                  F2011-0003-
                                                                                                                                                F2011-0002-
                                                                                                                                                              F2011-0002-
                                                                                                                                                                            F2011-0001-
                                                                                                                                                                                          F2010-0008-
                                                                                                                                                                                                        F2010-0007-
                                                                                                                                                                                                                                                Report No.




                                                                                                                                                                X




                                                                                                                                    X
                                                                                                                                                  X
                                                                                                                                                                                            X
                                                                                                                                                                                                          X




                                                                                              12
                                                                                                                                                                                                                                                  Access Controls




                                                                                              5
                                                                                                                                                                              X
                                                                                                                                                                                                                                                  Certification and Accreditation




                                                                                              5
                                                                                                                                                                              X
                                                                                                                                                                                                                                                  Configuration Management




                                                                                              1
                                                                                                                                                  X
                                                                                                                                                                                                                                                  Contingency Plans




                                                                                              2
                                                                                                                                                                                                                                                  Continuity of Operations Plans




                                                                                              4
                                                                                                                                                                X
                                                                                                                                                                                                                                                  Continuous Monitoring Management




                                                                                              0
                                                                                                                                                                                                                                                  Contractor Systems




                                                                                              1
                                                                                                                      X
                                                                                                                                                                                                                                                  Cyber Security




       report may cover several IA weaknesses.
                                                                                              7
                                                                                                                                                                                            X
                                                                                                                                                                                                                                                  Identity and Access Management




                                                                                              2
                                                                                                                                                                                                                        X




16
	
                                                                                                                                                                                                                                                  Information Systems Inventory Reporting




                                                                                              2
                                                                                                        X
                                                                                                                                                                                                                                                  Incident Handling




                                                                                              1
                                                                                                                                                                                                                                                  Interoperability




                                                                                              2
                                                                                                        X
                                                                                                                                                                                                                                                  Personnel Security




                                                                                              3
                                                                                                                                                                                                                                                  Physical Security




                                                                                              9
                                                                                                                                                                                                                                                  Plans of Actions and Milestones




                                                                                                                                    X
                                                                                                                                                                                            X




                                                                                              10
                                                                                                                                                                                                                                                  Privacy Act Information




                                                                                              0
                                                                                                                                                                                                                                                  Remote Access Management




                                                                                              6
                                                                                                                                    X




       Note: Totals do not equal the number of reports and testimonies reviewed because one
                                                                                                                                                                                                                                                  Risk, Threat, and Vulnerability Assessment




                                                                                              2
                                                                                                                                                                                                                                                  Security Capital Planning
                                                                                                                                                                X
                                                                                                                                                                                            X
                                                                                                                                                                                                          X




                                                                                                        X
                                                                                                                                    X
                                                                                                                                                  X
                                                                                                                                                                              X




                                                                                              13
                                                                                                                                                                                                                                                  Security Awareness, Training, Education

                                                                                                                                                                                                                                                  Security Policies and Procedures / Management
                                                                                                                                                                                                                        X




                                                                                                                      X
                                                                                                                                                                X
                                                                                                                                                                                            X
                                                                                                                                                                                                          X




                                                                                                        X
                                                                                                                                    X
                                                                                                                                                  X
                                                                                                                                                                              X




                                                                                              38
                                                                                                                                                                                                                                                  Oversight
Appendix D. Audit Reports Issued From
August 1, 2010, Through July 31, 2011
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/. Naval Audit Service reports are unavailable over
the Internet. Air Force Audit Agency reports can be accessed by certain government
users at https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41.

GAO
GAO Report No. GAO-10-636, “Global Positioning System: Challenges in Sustaining
and Upgrading Capabilities Persist,” September 2010

GAO Report No. GAO-10-916, “Information Security: Progress Made on Harmonizing
Policies and Guidance for National Security and Non-National Security Systems,”
September 2010

GAO Report No. GAO-11-148, “Health Information Technology: DoD Needs to Provide
More Information on Risks to Improve Its Program Management,” November 2010

GAO Report No. GAO-11-265, “Electronic Health Records: DoD and VA Should
Remove Barriers and Improve Efforts to Meet Their Common System Needs,”
February 2011

GAO Report No. GAO-11-276, “Defense Biometrics: DoD Can Better Conform to
Standards and Share Biometric Information with Federal Agencies,” March 2011

GAO Report No. GAO-11-421, “Defense Department Cyber Efforts: More Detailed
Guidance Needed to Ensure Military Services Develop Appropriate Cyberspace
Capabilities,” May 2011

GAO Report No. GAO-11-621, “Intelligence, Surveillance, and Reconnaissance: DoD
Needs a Strategic, Risk-Based Approach to Enhance Its Maritime Domain Awareness,”
June 2011

GAO Report No. GAO-11-684, “Department of Defense: Further Actions Needed to
Institutionalize Key Business System Modernization Management Controls,” June 2011

GAO Report No. GAO-11-75, “Defense Department Cyber Efforts: DoD Faces
Challenges In Its Cyber Activities,” July 2011

GAO Report No. GAO-11-565, “Data Center Consolidation: Agencies Need to Complete
Inventories and Plans to Achieve Expected Savings,” July 2011


                                          17
	
GAO Report No. GAO-11-566R, “Defense Logistics: Oversight and a Coordinated
Strategy Needed to Implement the Army Workload and Performance System,”
July 14, 2011

DoD IG
DoD IG Report No. D-2010-074, “Information Assurance Controls for the Defense
Civilian Pay System for FY 2009,” August 2, 2010 (FOUO)

DoD IG Report No. D-2011-020, “DoD Controls Over Information Placed on Publicly
Accessible Web Sites Require Better Execution,” November 29, 2010

DoD IG Report No. D-2011-064, “Audit of the Information Security Controls Over the
Marine Corps Total Force System Need Improvement,” May 5, 2011 (FOUO)

DoD IG Report No. D-2011-079, “Defense Information Systems Agency Controls Placed
in Operation and Tests of Operating Effectiveness as of October 1, 2010, Through
April 30, 2011,” June 30, 2011 (FOUO)

DoD IG Report No. D-2011-089, “Reducing Vulnerabilities at the Defense Information
Systems Agency Defense Enterprise Computing Centers,” July 22, 2011 (FOUO)

Army Audit Agency
Army Audit Agency Report No. A-2010-0162-FFI, “Data at Rest, Fort Carson,
Colorado,” August 11, 2010

Army Audit Agency Report No. A-2010-0212-FFI, “Data at Rest, Chief Information
Officer/G-6,” September 29, 2010

Army Audit Agency Report No. A-2011-0100-IET, “Data at Rest, Fort Bragg, North
Carolina,” April 29, 2011

Army Audit Agency Report No. A-2011-0147-IET, “Information Assurance Certification
for Contractors,” June 23, 2011

Army Audit Agency Report No. A-2011-0143-IET, “Application Migration, Office of the
Chief Information Officer/G-6,” July 6, 2011

Army Audit Agency Report No. A-2011-0150-IET, “The Army’s Use of Social Media,
External Official Presence Sites,” July 26, 2011

Naval Audit Service
Naval Audit Service Report No. N2010-0046, “Defense Travel System,” August 3, 2010
(FOUO)


                                         18
	
Naval Audit Service Report No. N2010-0052, “Managing Personally Identifiable
Information at Selected Commander, Navy Installations Command Activities,”
September 10, 2010 (FOUO)

Naval Audit Service Report No. N2011-0001, “Navy Enterprise Resource Program -
Purchase Card Capabilities,” October 1, 2010 (FOUO)

Naval Audit Service Report No. N2011-0017, “Navy Reserve Southwest Region Annual
Training and Active Duty for Training Orders,” January 19, 2011 (FOUO)

Naval Audit Service Report No. N2011-0020, “Unnecessary Collection of Personally
Identifiable Information in the Department of the Navy,” January 28, 2011 (FOUO)

Naval Audit Service Report No. N2011-0025, “Navy/Marine Corps Intranet Internal
Controls Over Computers During Turn-In Process,” March 18, 2011 (FOUO)

Naval Audit Service Report No. N2011-0028, “Followup of Management of Privacy Act
Information at the Navy Recruiting Command,” March 31, 2011 (FOUO)

Naval Audit Service Report No. N2011-0038, “Controls Over Navy Marine Corps
Intranet Contractors and Subcontractors Accessing Department of the Navy Information,”
May 26, 2011 (FOUO)

Naval Audit Service Report No. N2011-0040, “Managing Personally Identifiable
Information at Marine Corps Base, Camp Lejeune,” June 1, 2011 (FOUO)

Naval Audit Service Report No. N2011-0041, “Followup on Management of Privacy Act
Information at Naval District Washington,” June 15, 2011 (FOUO)

Naval Audit Service Report No. N2011-0046, “Followup on Management of Personally
Identifiable Information at Marine Corps Recruiting Command,” July 29, 2011 (FOUO)

Air Force Audit Agency
Air Force Audit Agency Report No. F2010-0005-FC2000, “Nuclear Certification of
Aircraft and Test Equipment Software,” August 23, 2010

Air Force Audit Agency Report No. F2010-0007-FB4000, “Access Controls For Air and
Space Operations Center Networks,” August 31, 2010

Air Force Audit Agency Report No. F2010-0008-FC4000, “Temporary Duty Travel
Management,” September 13, 2010

Air Force Audit Agency Report No. F2011-0001-FB4000, “Voice Over Internet Protocol
Implementation,” December 20, 2010



                                         19
	
Air Force Audit Agency Report No. F2011-0002-FB4000, “Information Assurance
Workforce Improvement Program,” January 26, 2011

Air Force Audit Agency Report No. F2011-0002-FB2000, “Enterprise Environmental
Safety and Occupational Health – Management Information System Application
Controls,” February 15, 2011

Air Force Audit Agency Report No. F2011-0003-FB4000, “Access Controls For
Electronic Medical Records,” April 1, 2011

Air Force Audit Agency Report No. F2011-0004-FB4000, “Computer Network Incident
Response and Reporting,” April 20, 2011

Air Force Audit Agency Report No. F2011-0006-FB4000, “Privacy Breach Reporting,”
July 14, 2011




                                       20
	
Appendix E. Matrix of Reports that Identified
Key Information Assurance Weaknesses
Reported From January 1, 1995, Through
July 31, 2010


                                      Security Policies and Procedures /




                                                                                                                                    Certification and Accreditation
                                                                                                  Risk, Threat, and Vulnerability




                                                                                                                                                                      Security Awareness, Training,
              Number of Reports and




                                      Management Oversight
              Testimonies Reviewed




                                                                                                                                                                                                      Contingency Plans
                                                                           Access Controls



                                                                                                  Assessment




                                                                                                                                                                      Education
   Year
 2010               47                          40                          28                                8                              8                                   7                      10
 2009               48                          29                          14                                9                              3                                   4                         5
 2008               21                          15                             9                              5                              4                                   4                         2
 2007               36                          33                          15                                2                              7                                   8                         7
 2006               28                          12                          19                                3                         12                                       8                         6
 2005               46                          30                          21                             17                           16                                    17                        19
 2004               40                          33                          19                             22                           18                                    12                        10
 2003               57                          13                          19                             23                           19                                       5                      17
 2002               57                          32                          16                             10                           22                                    12                        17
 2001               59                          50                          21                             24                                0                                10                        11
 2000               21                             0                        11                             10                                6                                   8                         8
 1999               75                          89                          59                             18                           22                                    29                        10
 Total            535                       376                            251                          151                         137                                    124                        122
    Note: The top six IA weaknesses over the previous 12 reporting cycles are
    discussed in the table above. Totals do not equal the number of reports and
    testimonies reviewed because one report may cover several IA weaknesses.




                                                                                             21
Appendix F. Audit Reports From Prior
Information Assurance Summary Reports
With Unresolved Recommendations
IA weaknesses continue to exist throughout DoD. Of the 535 reports and testimonies
included in 12 prior IA summary reports, 45 had unresolved recommendations;
management had not corrected agreed-upon IA weaknesses within 12 months of the
report issue date. The list of reports with unresolved recommendations was compiled
based on information GAO and the DoD audit community provided in July 2011 and may
be incomplete because of the extent of information maintained in their respective follow-
up systems.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/. Naval Audit Service reports are unavailable over
the Internet. Air Force Audit Agency reports can be accessed by certain government
users at https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41.

GAO
GAO Report No. GAO-07-528, “Information Security: Selected Departments Need to
Address Challenges in Implementing Statutory Requirements,” August 2007

GAO Report No. GAO-08-922, “DOD Business Systems Modernization: Planned
Investment in Navy Program to Create Cashless Shipboard Environment Needs to Be
Justified and Better Managed,” September 2008

GAO Report No. GAO-09-49, “Defense Management: DOD Can Establish More
Guidance for Biometrics Collection and Explore Broader Data Sharing,” October 2008

GAO Report No. GAO-09-268, “Electronic Health Records: DOD’s and VA’s Sharing of
Information Could Benefit from Improved Management,” January 2009

GAO Report No. GAO-09-586, “DOD Business Systems Modernization: Recent
Slowdown in Institutionalizing Key Management Controls Needs to Be Addressed,”
May 2009

GAO Report No. GAO-09-566, “Information Technology: Federal Agencies Need to
Strengthen Investment Board Oversight of Poorly Planned and Performing Projects,”
June 2009

GAO Report No. GAO-09-775, “Electronic Health Records: DOD and VA Efforts to
Achieve Full Interoperability Are Ongoing; Program Office Management
Needs Improvement,” July 2009


                                           22
	
GAO Report No. GAO-09-546, “Information Security: Agencies Continue to Report
Progress, but Need to Mitigate Persistent Weaknesses,” July 2009

GAO Report No. GAO-09-740R, “Defense Critical Infrastructure: Actions Needed to
Improve the Consistency, Reliability, and Usefulness of DOD’s Tier 1 Task Critical
Asset List,” July 2009

GAO Report No. GAO-09-617, “Information Security: Concerted Effort Needed
to Improve Federal Performance Measures,” September 2009

GAO Report No. GAO-09-888, “Information Technology: DOD Needs to Strengthen
Management of Its Statutorily Mandated Software and System Process Improvement
Efforts,” September 2009

GAO Report No. GAO-10-148, “Critical Infrastructure Protection: OMB Leadership
Needed to Strengthen Agency Planning Efforts to Protect Federal Cyber Assets,”
October 2009

GAO Report No. GAO-10-202, “Information Security: Agencies Need to Implement
Federal Desktop Core Configuration Requirements,” March 2010

GAO Report No. GAO-10-663, “Scope and Content of DOD’s Congressional Report and
Executive Oversight of Investments Need to Improve,” May 2010

DoD IG
DoD IG Report No. D-2005-0054, “Audit of the DOD Information Technology Security
Certification and Accreditation Process,” April 28, 2005 (FOUO)

DoD IG Report No. D-2009-0097, “Data Migration Strategy and Information Assurance
for the Business Enterprise Information Services,” July 30, 2009

DoD IG Report No. D-2009-0086, “Controls Over the Contractor Common Access Card
Life Cycle in the Republic of Korea,” June 9, 2009

DoD IG Report No. D-2010-0058, “Selected Controls for Information Assurance at the
Defense Threat Reduction Agency,” May 14, 2010

Army Audit Agency
Army Audit Report No. A-2008-0186-FFI, “Installation Campus Area Network
Connectivity - Wireless Network and Devices,” July 8, 2008

Army Audit Report No. A-2009-0037-FFI, “Information Technology Contingency
Plans - Chief Information Officer/G-6,” January 26, 2009




                                         23
	
Army Audit Report No. A-2010-0046-FFI, “Army Networthiness Certification Program,”
February 2, 2010

Naval Audit Service
Naval Audit Service Report No. N-2007-0017, “Ordinance Information System,”
February 28, 2007 (FOUO)

Naval Audit Service Report No. N-2008-0023, “Information Security Within the Marine
Corps,” February 20, 2008 (FOUO)

Naval Audit Service Report No. N-2009-0027, “Processing of Computers and Hard
Drives During the Navy Marine Corps Intranet (NMCI) Computer Disposal Process,”
April 28, 2009 (FOUO)

Naval Audit Service Report No. N2010-005, “Information Security for Research,
Development, Test, and Evaluation and Education Legacy Networks,” January 7, 2010
(FOUO)

Naval Audit Service Report No. N2010-0040, “Protecting Personally Identifiable
Information at the Office of Civilian Human Resources and Human Resources Services
Centers,” June 30, 2010 (FOUO)

Air Force Audit Agency
Air Force Audit Agency Report No. F2010-0009-FB2000, “Implementation of Chief
Financial Officer Compliance Tracking for Financial Systems,” July 28, 2010

Air Force Audit Agency Report No. F2010-0005-FB4000, “Publicly Accessible Air
Force Web Sites,” May 14, 2010

Air Force Audit Agency Report No. F2010-0006-FB2000, “Air National Guard Reserve
Writing System Controls,” April 30, 2010

Air Force Audit Agency Report No. F2010-0003-FB4000, “Contractor Circuit Security,”
January 13, 2010

Air Force Audit Agency Report No. F2009-0010-FB2000, “Follow-Up Audit, Air Force
Equipment Management Systems Controls,” August 14, 2009

Air Force Audit Agency Report No. F2009-0007-FD4000, “Personnel Security
Clearances,” May 8, 2009

Air Force Audit Agency Report No. F2009-0003-FB4000, “Follow-Up Audit, Controls
Over Access to Air Force Networks and Systems,” April 30, 2009




                                        24
	
Air Force Audit Agency Report No. F2009-0004-FB2000, “Defense Enterprise
Accounting and Management System Controls,” February 20, 2009

Air Force Audit Agency Report No. F2009-0002-FB4000, “Plan of Action and Milestone
Program Management,” November 5, 2008 (FOUO)

Air Force Audit Agency Report No. F2009-0001-FB2000, “Mechanization of Contract
Administration Service Controls,” October 3, 2008

Air Force Audit Agency Report No. F2009-0001-FB4000, “Combat Information
Transport System Technical Order Compliance Process,” October 3, 2008

Air Force Audit Agency Report No. F2008-0007-FB4000, “Federal Information Security
Management Act Security Control Testing,” September 15, 2008 (FOUO)

Air Force Audit Agency Report No. F2008-0006-FB4000, “Mission Assurance Category
YI Systems Certification and Accreditation,” August 22, 2008

Air Force Audit Agency Report No. F2008-0005-FB2000, “Comprehensive Cost and
Requirements System Controls,” July 23, 2008

Air Force Audit Agency Report No. F2007-0004-FB2000, “Reliability, Availability,
	
Maintainability Support System for Electronic Combat Pods System Controls,”
	
May 25, 2007
	

Air Force Audit Agency Report No. F2007-0004-FB4000, “Security of Remote
Computer Devices,” March 13, 2007 (FOUO)

Air Force Audit Agency Report No. F2006-0009-FB2000, “Contract Writing System
Controls,” August 3, 2006

Air Force Audit Agency Report No. F2006-0008-FB2000, “System Controls for Item
Manager Wholesale Requisition Process System,” June 21, 2006

Air Force Audit Agency Report No. F2006-0006-FB2000, “Controls for the Wholesale
and Retail Receiving and Shipping System,” May 19, 2006




                                         25
	
Glossary
Access Controls – Access controls limit information system resources to authorized
users, programs, processes, or other systems.

Audit Trail – An audit trail is a chronological record of system activities that enables the
reconstruction and examination of the sequence of events or changes in an event.

IA Certification and Accreditation – Certification and accreditation is the standard
DoD approach for identifying information security requirements, providing security
solutions, and managing the security of DoD information systems.

Configuration Management – Configuration management is the management of
security features and assurances through control of changes made to hardware, software,
firmware, documentation, test, test fixtures, and test documentation throughout the life
cycle of an information system.

Contingency Plan – A contingency plan is maintained for emergency response, backup
operations, and post-disaster recovery of an information system to ensure the availability
of critical resources and to facilitate the continuity of operations in an emergency.

Continuity of Operations Plan – A continuity of operations plan is a plan for continuing
an organization’s essential functions at an alternate site and performing those functions
for the duration of an event with little or no loss of continuity before returning to normal
operations.

Continuous Monitoring Management – The process implemented to maintain a current
security status for one or more information systems or for the entire suite of information
systems on which the operational mission of the enterprise depends. The process
includes: 1) The development of a strategy to regularly evaluate selected IA
controls/metrics, 2) Recording and evaluating IA relevant events and the effectiveness of
the enterprise in dealing with those events, 3) Recording changes to IA controls, or
changes that affect IA risks, and 4) Publishing the current security status to enable
information sharing decisions involving the enterprise.

Contractor Systems – Agency systems operated on its behalf by contractors or other
entities, including Agency systems and services residing in the cloud external to the
Agency.

Cyber Security – Prevention of damage to, protection of, and restoration of computers,
electronic communications systems, electronic communications services, wire
communication, and electronic communications, including information contained therein,
to ensure its availability, integrity, authentication, confidentially and non-repudiation.




                                            26
	
Identity and Access Management – the processes, technologies and policies for
managing digital identities and controlling how identities can be used to access resources.

Information Systems Inventory Reporting – The head of each agency must develop
and maintain an inventory of major information systems, including major national
security systems, operated by or under the control of the agency. The inventory of
information systems or networks should include those not operated by or under the
control of the agency.

Incident Response – Also known as incident handling, incident response is the
mitigation of violations of security policies and recommended practices.

Interoperability – 1. The ability to operate in synergy in the execution of assigned tasks.
2. (DoD only) The condition achieved among communications-electronics systems or
items of communications-electronics equipment when information or services can be
exchanged directly and satisfactorily between them or their users.

Personnel Security – The objective of the Personnel Security Program is to ensure that
the military, civilian, and contractor personnel assigned to and retained in sensitive
positions in which they could potentially damage national security are, and remain,
reliable and trustworthy, and that no reasonable basis exists for doubting their allegiance
to the United States. Assignment to sensitive duties is granted only to individuals who
are U.S. citizens and for whom an appropriate investigation has been completed.

Physical and Environmental Security – Physical security refers to measures taken to
protect systems, buildings, and related supporting infrastructure against threats associated
with their physical environment.

Plan of Action and Milestones – A plan of action and milestones is a tool that identifies
tasks that need to be accomplished. A plan of action and milestones details resources
required to accomplish the elements of the plan, any milestones in meeting the task, and
scheduled completion dates for the milestones. The purpose of a plan of action and
milestones is to assist agencies in identifying, assessing, prioritizing, and monitoring the
progress of corrective efforts for security weaknesses found in programs and systems.

Policies and Procedures – Policies and procedures are the aggregate of directives,
regulations, rules, and practices that regulate how an organization manages, protects, and
distributes information. Information security policy can be contained in public laws,
Executive orders, DoD Directives, and local regulations.

Privacy Act Information – Privacy Act information is personal information about an
individual that links, relates, or is unique to or identifies or describes him or her, such as
SSN; age; military rank; civilian grade; marital status; race; salary; home or office phone
number; and other demographic, biometric, personal, medical, and financial information.
This information is also referred to as PII, or that which can be used to distinguish or
trace an individual’s identity.

                                              27
	
Remote Access Management – Access to an organizational information system by a
user (or a process acting on behalf of a user) communicating through an external network
(e.g., the Internet).

Risk Assessment – Risk assessment is an analysis of threats to and vulnerabilities of
information systems and the potential impact of the loss of an information system and its
capabilities. The analysis is used as a basis for identifying appropriate and cost-effective
security measures.

Security Capital Planning – Synonym for capital programming and is a decision-
making process for ensuring that IT investments integrate strategic planning, budgeting,
procurement, and the management of IT in support of agency missions and business
needs.

Security Awareness, Training, and Education
       •	 Awareness – Awareness is a learning process that sets the stage for training by
          changing individual and organization attitudes to realize the importance of
          security and the adverse consequences of its failure.
       •	 Training – Training is teaching people the knowledge and skills that will
          enable them to perform their jobs more effectively.
       •	 Education – Education focuses on developing the ability and vision to perform
          complex, multidisciplinary activities and the skills needed to further the
          information technology security profession. Education activities include
          research and development to keep pace with changing technologies.

Segregation of Duties – Segregation of duties refers to dividing roles and responsibilities
so that a single individual cannot subvert a critical process.




                                             28
	
